No.

In the Supreme Court of the United States

Asa Lea,
Petitioner
v.
United States of America,
Respondent

On Petition for Writ of Certiorari to the United States Court of Appeals for
the District of Columbia Circuit

Certificate of Service
I, William L. Welch, III, counsel for petitioner, and a member of the Bar of
this Court, certify that on this 14th day of June 2021 the required number of copies
of the Motion to Proceed in Forma Pauperis and Petition for Certiorari were mailed
to Mr. T. Patrick Martin, Office of the United States Attorney, 555 Fourth Street,
NW, Washington, DC 20530, and to the Solicitor General of the United States,
Room 5614, Department of Justice, 950 Pennsylvania Avenue, N.W., Washington,
DC 20530-0001.

/s/ William

L. Welch, III

William L. Welch, III
5305 Village Center Drive, Suite 142
Columbia, Maryland 21044
wlw@wwelchattorney.com
Telephone: (410) 615-7186
Facsimile: (410) 630-7760
Counsel for Asa Lea, Petitioner
(Appointed pursuant to the Criminal
Justice Act)

2

